Comments on Draft Audit Report, Cosponsorship Agreement, Authorization No. 98-6360-71

      Finding 1. This finding relates to three categories of unjustified expenses claimed by
      MBELDEF. With respect to the bulk of these expenses, $77,584 for “contract
      administration,” our understanding is this sum represents salary expenses for employees
      hired by MBELDEF to perform its obligations under the cosponsorhip. As indicated
      above, there would not normally be a third-party invoice, although the expense of course
      should not be dcoumented. We will purse obtaining documentation to support our
      understanding. On this expense and on the remaining expenses not adequately justified
      by MBELDEF, we intend to seek reimbursement.


      Recommendation 1A. We agree, with the conditions that we first endeavor to obtain a
      final accounting from MBELDEF, and that the demand may be made by a different
      senior official.

      Finding 2. The findings regarding MBELDEF’s position on in-kind contributions
      contains a complicated but incomplete factual picture. Once management has completed
      its review, we will consider our legal rights under the cosponsorship agreement, which is
      a form of contract, although not a procurement contract. It need not specify
      consequences for non-compliance for SBA to be able to assert breach and pursue legal
      remedies.

      We share your concern regarding accountability for fees collected from attendees. With
      your coordination, we intend to pursue this matter with MBELDEF.


      Recommendation 2A. We agree.

      Recommendation 2B. We agree, although the official implementing the legal
      recommendation may be this individual or some other senior official.

      Recommendation 2C. We agree, although another official may be appropriate.

      Recommendation 2D. We agree, although another official may be appropriate.
                  AUDIT OF MINORITY BUSINESS ENTERPRISE
                  LEGAL DEFENSE AND EDUCATION FUND, INC.
                   COSPONSORSHIP EXPENSES AND INCOME

                           AUDIT REPORT NUMBER 0-29

                                SEPTEMBER 29, 2000




This report may contain proprietary information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without permission
of the Office of Inspector General.
                              U.S. Small Business Administration
                                  Office of Inspector General
                                    Washington, DC 20416

                                                                      AUDIT REPORT
                                                              Issue Date: September 29, 2000
                                                              Number: 0-29


TO:            Kerry L. Kirkland, Associate Deputy Administrator for
                Government Contracting & Minority Enterprise Development

               David R. Kohler, Deputy General Counsel



FROM:          Robert G. Seabrooks, Assistant Inspector General
                for Auditing

SUBJECT:       Audit of Minority Business Enterprise Legal Defense and Education Fund, Inc.
               (MBELDEF) Cosponsorship Expenses and Income

      We completed an audit of the MBELDEF cosponsorship expenses and income under
Cosponsorship Agreement Authorization No. 98-6360-71. The agreement provided that SBA
and MBELDEF, which is located in Washington, DC, would cosponsor training regarding new
8(a), HUBZone, and Small Disadvantaged Business (SDB) rules and contracting procedures.
The agreement further provided for training to take place at 12 major cities from October 1998
through April 1999. As SBA’s cosponsor, MBELDEF was responsible for general
administration as well as executing and overseeing various contracts for the training events, e.g.,
curriculum development, marketing, printing of workshop material, workshop logistics, and on-
site services.

      The estimated cost of the cosponsorship was $1,337,800. The approved budget called for
Federal funding of $900,000, income from attendee fees of $308,335, and an in-kind
contribution from MBELDEF of $129,465. MBELDEF had received $646,611 in Federal
funding when the cosponsored activity was completed. MBELDEF also reported that it received
$81,545 from attendee fees, but did not provide the records necessary to determine whether it
properly accounted for these fees. MBELDEF did not provide any support for in-kind
contributions.


                             AUDIT OBJECTIVES AND SCOPE

      The audit objectives were to determine whether the payments made to MBELDEF for
services related to the cosponsorship were justified, to determine MBELDEF’s compliance with
the terms of the cosponsorship agreement, and determine whether MBELDEF properly
accounted for the fee income it collected. The agreement required MBELDEF to submit
invoices to justify expenditures. We considered an expense to be unjustified if it had no
accompanying invoice, it had already been paid, it was unrelated to the cosponsorship activity, or
it was never actually incurred. MBELDEF did not provide the records necessary to determine
the extent of their non-compliance with the in-kind contribution and whether MBELDEF
properly accounted for the fee income it collected. We reviewed the Cosponsorship Agreement,
documents supporting MBELDEF’s requests for payment and SBA’s approval of MBELDEF’s
invoices, and other documents related to the cosponsorship. We interviewed MBELDEF’s
President, MBELDEF’s accountant, and SBA officials.

      We reviewed MBELDEF’s activities for the period August 1998 through May 1999.
Fieldwork was conducted from May 22, 2000 to September 15, 2000. The audit was conducted
in accordance with Government Auditing Standards.


                                      RESULTS OF AUDIT

      MBELDEF was paid $121,394 for unjustified expenses under the cosponsorship. Also,
MBELDEF did not provide the amount of in-kind contribution agreed upon in the agreement,
and did not provide the auditors with documentation supporting the accuracy of the $81,545 that
it reported as fees collected. At a meeting, SBA management officials agreed to seek
reimbursement from MBELDEF for the unjustified expenses with the condition that SBA first is
allowed to obtain a final accounting from MBELDEF. They also stated that they had insufficient
time to provide a full response.

      In response to the audit, MBELDEF stated that it had appropriate documentation for all
expenses incurred and fees collected. They also requested an additional seven days to provide
the supporting documentation and reconsideration of the recommendation related to its in-kind
contribution. Any additional documentation provided by MBELDEF will be evaluated as part of
the audit resolution process. MBELDEF’s response in its entirety is included as Attachment 1.

Finding 1: Unjustified Cosponsorship Expenses

      MBELDEF submitted claims and was paid $121,394 for expenses under the cosponsorship
that were not justified. SBA paid MBELDEF $112,316 for expenses without supporting
invoices, $3,807 for duplicate expenses, $3,640 for expenses unrelated to the cosponsorship
activity, and $1,631 for expenses claimed that were not incurred. Under the terms of the
cosponsorship agreement, MBELDEF was required to submit invoices to justify expenditures.

Unsupported Expenses

      MBELDEF did not submit invoices for $112,316 of the $728,156 it received under the
cosponsorship. One claimed expense, $77,584 for contract administration, accounted for 69
percent of the amount claimed without invoices. Cancelled checks totaling $22,566 were
submitted in lieu of invoices. Submitting cancelled checks without accompanying invoices
neither met the terms of the agreement nor did it permit SBA to determine whether the expenses
were related to the cosponsorship agreement.



                                                2
Duplicate Expenses

     MBELDEF submitted duplicate invoices and was overpaid $3,807. The duplications
included payments to contractors, MBELDEF’s accountant, a travel agency and a printing
company. In addition, MBELDEF included $491 in payments for meals delivered to the hotel
room to individuals who also received per diem payments for the meals.

Expenses Unrelated to Cosponsorship

      SBA paid MBELDEF $3,640 for expenses unrelated to the agreement. The unrelated
expenses included an MBELDEF employee’s personal expenses, work done for MBELDEF
prior to the cosponsorship agreement being signed, and charges for 2 of 3 hotel rooms assigned
to the same individual for the same time.

Expenses That Were Not Incurred

     SBA paid MBELDEF $1,631 for expenses that MBELDEF did not incur. While
MBELDEF did not incur expenses for cancelled airline flights, it submitted invoices for them to
SBA.

RECOMMENDATION

1A. We recommend that the Associate Deputy Administrator for Government Contracting &
    Minority Enterprise Development require MBELDEF to reimburse SBA $112,316 for
    unsupported expenses, $3,807 for duplicate payments, $3,640 for unrelated expenses, and
    $1,631 for claimed expenses that were not incurred.

SBA Management’s Response

       SBA management agreed with the recommendation, with the condition that SBA first
endeavor to obtain a final accounting from MBELDEF, and that the recommendation may be
implemented by a senior official other than the Associate Deputy Administrator for Government
Contracting & Minority Enterprise Development.

OIG Evaluation of Management’s Response

       The comments provided by SBA management are responsive to our recommendation.




                                               3
Finding 2: Other Matters

MBELDEF Did Not Provide the Amount of In-kind Contribution Agreed Upon

       MBELDEF’s President acknowledged that MBELDEF did not provide all of the in-kind
contribution that it agreed to in the cosponsorship. The in-kind contribution consisted of non-
Federally funded time spent by MBELDEF employees on the agreement. MBELDEF’s
President informed SBA that MBELDEF could not meet the in-kind requirement five days after
signing the cosponsorship agreement in a September 30, 1998 letter to the Acting Associate
Administrator for Small Disadvantaged Business Certification & Eligibility (AA/SDB) and the
Associate Administrator for Business Initiatives. Though the President of MBELDEF requested
a modification to the cosponsorship agreement, SBA did not modify the agreement. Also, the
Acting AA/SDB stated that the Associate Deputy Administrator for Government Contracting &
Minority Enterprise Development told her not to worry about MBELDEF’s letter and as a result,
SBA did not formally respond to MBELDEF. According to the cosponsorship agreement, an
amendment to the agreement must be in writing and agreed to by both MBELDEF and SBA.
While the cosponsorship agreement provided that MBELDEF would make an in-kind
contribution, the agreement neither required MBELDEF to account for the time nor included any
consequences for MBELDEF’s non-compliance.

MBELDEF Did Not Provide Auditors with Documentation Supporting the Accuracy of
Amounts Reported as Fees Collected

        As of the end of fieldwork on this audit, MBELDEF had not provided the auditors with
the documentation necessary to determine the accuracy of the $81,545 that it reported as attendee
fees. The agreement required MBELDEF to spend these fees ahead of other funding sources.
Until these fees can be properly accounted for, SBA cannot determine whether it spent the proper
amount under the agreement.

RECOMMENDATIONS

We recommend that the:

2A.    Deputy General Counsel determine what action can be taken against MBELDEF for non-
       compliance with the cosponsorship agreement terms regarding the shortfall of
       MBELDEF’s in-kind contribution.

2B     Associate Deputy Administrator for Government Contracting & Minority Enterprise
       Development implement the action the General Counsel determines is appropriate in
       recommendation 2A.

2C.    Associate Deputy Administrator for Government Contracting & Minority Enterprise
       Development require MBELDEF to provide a full accounting of the attendee fees
       collected.




                                               4
2D.    Associate Deputy Administrator for Government Contracting & Minority Enterprise
       Development require MBELDEF to pay SBA any fees obtained in excess of the $81,545
       reported, if the full accounting required in recommendation 2C shows that not all fees
       were reported.

SBA Management’s Response

        SBA management agreed with the four recommendations, with the condition that a senior
official other than the Associate Deputy Administrator for Government Contracting & Minority
Enterprise Development may implement recommendations 2B, 2C, and 2D. SBA management
stated that once it has completed its review, SBA will consider its legal rights under the
cosponsorship agreement and that it would coordinate with the OIG in an effort to pursue the
matter regarding MBELDEF’s accountability for fees collected.

OIG Evaluation of Management’s Response

       The comments provided by SBA management are responsive to our recommendations.

                                        * * * * *
       The findings and recommendations in this audit report are based on the conclusions of the
OIG’s Auditing Division. The recommendations are subject to review, management decision
and corrective action by your office in accordance with existing Agency procedures for audit
follow-up and resolution.

       Please provide your management decision for each recommendation within 80 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
Recommendation Action Sheet, and show either your proposed corrective action and target date
for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert Hultberg, Director,
Business Development Programs Group at (202) 205-7204.

Attachments




                                               5
2
                                                                                                                           Attachment 2


                                            AUDIT REPORT DISTRIBUTION



Recipient                                                                                                Number of Copies

Administrator ................................................................................................................. 1

Deputy Administrator .................................................................................................... 1

General Counsel, Office of General Counsel ............................................................... 2

Associate Administrator for Small Disadvantaged Business
Certification & Eligibility ............................................................................................. 1

Associate Administrator for Business Initiatives .......................................................... 1

Office of Chief Financial Officer
Attention: Jeffrey Brown ............................................................................................. 1
